HHS/OIG-Audit-"Review of Medical and Ancillary Medicaid Claims for 21 to 64 Year Old Residents of State Psychiatric Hospitals in Texas that are Institutions for Mental Diseases, (A-06-01-00054)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medical and Ancillary Medicaid Claims for 21 to 64 Year Old
Residents of State Psychiatric Hospitals in Texas that are Institutions for
Mental Diseases ," (A-06-01-00054)
June 28, 2002
Complete
Text of Report is available in PDF format (749 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if controls were in place to
effectively preclude the Texas Department of Health (TDH) from claiming Federal
financial participation (FFP) under the Medicaid program for 21 to 64 year old
residents of State operated psychiatric hospitals that are institutions for
mental diseases (IMDs).  We found that for the period September 1, 1997
through August 31, 2000, TDH improperly claimed FFP for medical and ancillary
services for IMD clients between the ages of 22 to 64, and for those aged 21
at admission. As a result, FFP totaling $462,551 was improperly claimed at the
nine State hospitals included in our audit. While State officials stated that
it would recover payments for the claims that were improperly paid, our review
focused on the improper claiming of FFP by the State Medicaid agency, not on
inappropriate payments received by providers. Therefore, the improperly claimed
FFP associated with this audit, as well as any identified subsequently, should
be refunded to the Federal Government irrespective of whether or not payments
are recouped from providers.